                     United States Department of the Interior

                                      Office of Inspector General
                                           Western Region
                                               Federal Building
                                        2800 Cottage Way, Suite E-2712
                                          Sacramento, California 95825



                                                                  Report No. W-VS-BIA-0009-2006
                                                                               September 28, 2006

Memorandum

To:           Assistant Secretary for Policy, Management and Budget
               (Attention: Associate Director for Finance, Policy and Operations)
              Assistant Secretary for Indian Affairs

From:         Michael P. Colombo
              Regional Audit Manager

Subject:      Verification Review of the Four Recommendations from Our January 2002 Audit
              Report Management of Federal Funds, Cheyenne and Arapaho Tribes of
              Oklahoma (No. 2002-I-0006)

       The Office of Inspector General (OIG) has completed a verification review of the four
recommendations presented in the subject audit report. The objective of the review was to
determine whether the recommendations were implemented as reported to the OIG and to the
Office of Financial Management, Office of Policy, Management and Budget.

Background

        The report made four recommendations to the Bureau of Indian Affairs (BIA) regarding
the sufficiency of the Tribes’ management systems and internal controls to ensure that federal
funds were properly managed, accounted for, and expended in accordance with federal laws and
regulations and the terms of the funding agreements.

       In its October 31, 2001 response to the draft of the subject report, BIA expressed general
concurrence with all four of the recommendations. Based on the response, we requested
additional information on Recommendation 1 and considered Recommendations 2, 3, and 4 to be
resolved but not implemented. We referred all four of the recommendations to the Office of
Financial Management for tracking of implementation on February 7, 2002. In a February 25,
2003 memorandum to the OIG, the Office of Financial Management reported that the audit
report was closed and that all recommendations had been implemented.




  This report is exempt from disclosure to the public pursuant to exemptions 4 and 5 of the
Freedom of Information Act 5 U.S.C. §§ 552 (b)(4) and (b)(5). For this reason, recipients of
 this report may not show or release its contents for purposes other than official review and
                            comment under any circumstances.
Scope and Methodology

       The scope of this review was limited to determining whether BIA took adequate action to
implement the recommendations. To accomplish our objective, we reviewed documentation
provided by BIA officials to support closing the recommendations, as well as documentation
showing ongoing corrective actions taken after closure. During our review, we interviewed
personnel from BIA’s Office of Audit and Evaluation and Southern Plains Regional Office and
from the Cheyenne and Arapaho Tribes of Oklahoma.

       We did not perform any site visits or conduct any detailed audit fieldwork to determine
whether the underlying deficiencies that were initially identified have actually been corrected.
As a result, this review was not conducted in accordance with the Government Auditing
Standards issued by the Comptroller General of the United States.

                                      Results of Review
        Our current review found that BIA implemented Recommendations 1 through 4. The
status of the recommendations is summarized in the Appendix.

Recommendation 1: “Ensure that Tribal management and elected officials enforce
compliance with the Tribes’ Accounting and Finance Manual in accounting for and
administering federal funds to forestall establishing a federal monitor and/or reassuming
administration of the programs.”

        In its October 31, 2001 response to the draft of the report, BIA offered to work with the
Tribes to develop internal policies and procedures for the finance office.

        Actions taken by BIA in response to this recommendation resulted in a Resolution passed
by the Business Committee committing the Tribes to “enforcement of compliance with the
Tribe's Accounting and Finance Manual, as well as other applicable laws, regulations, and
guidelines necessary to the efficient and effective accounting and administration of federal
funds” and requiring “timely monitoring and accomplishment reports from our employees, with
emphasis on compliance by the tribal government.” In addition, BIA has continued to treat the
Tribes as a “High Risk Contractor/Grantee” by requiring documented spending plans before
allowing the Tribes to draw down BIA funds. We also noted that BIA officials have continued
to work closely with the Tribes to improve financial management and to take appropriate
corrective actions when needed. For example, because of historical mismanagement, BIA
initiated a hold on Contract Support funds in April 2005, which continues to the present date.

      Based on these actions, we concluded that Recommendation 1 has been resolved and
implemented.

Recommendation 2: “Ensure that the eligibility and need of participants in the Tribes’
Social Services Program are properly determined and documented in case files so that only
eligible applicants receive federal assistance. Such assurance could include BIA’s installing
                                                2
    This report is exempt from disclosure to the public pursuant to exemptions 4 and 5 of the
 Freedom of Information Act 5 U.S.C. §§ 552 (b)(4) and (b)(5). For this reason, recipients of
   this report may not show or release its contents for purposes other than official review and
                              comment under any circumstances.
a federal monitor, reassuming administration of the Program, or taking other action as
appropriate.”

        In its October 31, 2001 response, BIA stated that it would conduct a program review of
case files in November 2001 to determine whether significant improvements had been made in
administering the Social Services Program and would take necessary and appropriate action,
including partially or totally reassuming the Social Services Program contract, if improvements
had not been made.

         We found that after a November 2002 review of the Tribes’ Social Services Program,
BIA’s Southern Plains Regional Office recommended closure of Recommendation 2 because the
“Tribes were meeting the requirements contained in the corrective action plan developed in
response to the BIA reassumption proposal.” The review of Welfare Assistance Cases supported
closure of the recommendation by stating “Over-all, the case review findings were greatly
improved and found to be more adequately documented.” We also found that BIA’s Southern
Plains Regional Office had followed up with a similar review in December 2004 and concluded
that, although case records were much improved over the previous review, weaknesses continued
to exist in certain areas. BIA officials told us that an additional review was planned for
September 2006.

        Based on our examination of the reviews performed by the Southern Plains Regional
Office in response to the recommendation and the acknowledged intent of BIA to continue
working with the Tribes’ Social Services Program, we concluded that Recommendation 2 has
been resolved and implemented.

Recommendation 3: “Determine the amount of direct funding used for indirect purposes
that is reimbursable to each federal program.”

        In its October 31, 2001 response, BIA stated that it did not concur with the
recommendation, but that in an effort to assist in the resolution of the finding, would request the
Tribes to have their single auditor prepare a breakdown, by federal agency, of the direct funding
improperly used for indirect purposes. We agreed with this alternative plan of action. BIA
officials stated that it actively monitored the funding provided to the Tribes during the audit
period in question because of the Tribes’ “high risk” designation and was satisfied that none of
the unaccounted for revenues were applicable to BIA programs. BIA, however, had taken
actions to recover the portion of the unaccounted for revenues applicable to BIA programs.

        We verified that BIA, through the Concho Agency, issued a memorandum, dated
March 15, 2002, to the Chairman of the Cheyenne and Arapaho Tribes Business Committee
formally requesting the Tribes’ auditor to “prepare an analysis and breakdown of the $614,000 as
part of the current and ongoing single audit report. The results of such analysis should identify
each federal agency whose funds were inappropriately used.”

       Based on the corrective action taken by BIA, we concluded that Recommendation 3 has
been resolved and implemented.
                                               3
   This report is exempt from disclosure to the public pursuant to exemptions 4 and 5 of the
 Freedom of Information Act 5 U.S.C. §§ 552 (b)(4) and (b)(5). For this reason, recipients of
  this report may not show or release its contents for purposes other than official review and
                             comment under any circumstances.
     Recommendation 4: “Notify each affected federal agency of the reimbursable
amount determined.”

       This recommendation was directly dependent on completing the corrective action
requested in Recommendation 3. In its October 31, 2001 response, BIA did not specifically
address this recommendation because it did not believe it was responsible for the funds of non-
BIA agencies.

        We agree, and since BIA had taken action to recover its portion of the unaccounted for
revenues addressed in Recommendation 3, we consider Recommendation 4 resolved and
implemented. In addition, our office took formal action to notify the four federal agencies with
significant direct funding to the Tribes of our findings in regard to unaccounted for revenues.

Conclusion

        During an exit conference on August 1, 2006, we informed BIA officials that we were
reporting Recommendations 1 through 4 in the subject audit report as resolved and implemented.
Because we consider these recommendations closed, no response to this report is necessary.

       If you have any questions about this report, please contact me at (916) 978-5653.

cc: Focus Leader for Management Control and Audit Follow-up, Office of Financial
       Management, Office of the Assistant Secretary for Policy, Management and Budget
    Audit Liaison Officer, Assistant Secretary for Indian Affairs and Bureau of Indian
       Affairs - Director, Office of Audit and Evaluation, Bureau of Indian Affairs




                                              4
  This report is exempt from disclosure to the public pursuant to exemptions 4 and 5 of the
Freedom of Information Act 5 U.S.C. §§ 552 (b)(4) and (b)(5). For this reason, recipients of
 this report may not show or release its contents for purposes other than official review and
                            comment under any circumstances.
                                                                                   Appendix

            STATUS OF PRIOR AUDIT RECOMMENDATIONS

             Recommendation           Status                 Action Required

                     1                Resolved               No further action
                                      and Implemented        required.


                     2                Resolved               No further action
                                      and Implemented        required.


                     3                Resolved               No further action
                                      and Implemented        required.


                     4                Resolved               No further action
                                      and Implemented        required.




                                              5
  This report is exempt from disclosure to the public pursuant to exemptions 4 and 5 of the
Freedom of Information Act 5 U.S.C. §§ 552 (b)(4) and (b)(5). For this reason, recipients of
 this report may not show or release its contents for purposes other than official review and
                            comment under any circumstances.
